Semiannual Report to Congress
October 1, 2008 – March 31, 2009



                                            May 2009




    Federal Election Commission - Ofﬁce of Inspector General
           999 E Street, N.W. Suite 940, Washington, D.C. 20463
October 1, 2008 - March 31, 2009




                                   i
     Oﬃce of Inspector General Semiannual Report to Congress




ii
October 1, 2008 - March 31, 2009




                                   iii
                            Oﬃce of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank
 





iv
October 1, 2008 - March 31, 2009




                                   FEDERAL ELECTION COMMISSION
                                   WASHINGTON, D.C. 20463
                                   OFFICE OF THE INSPECTOR GENERAL




                                                A Message from the Inspector General


                      On October 14, 2008, the President signed H.R. 928 into law, the Inspector General
                      Reform Act of 2008. This law amends several provisions of the Inspector General Act
                      of 1978, and is intended to strengthen the independence and oversight responsibili­
                      ties of the Inspectors General. The law also establishes the Council of Inspectors
                      General for Integrity and Efficiency (CIGIE). CIGIE was established to:

                        •   address integrity, economy, and effectiveness issues that transcend individual
                            Government agencies; and

                        •   increase the professionalism and effectiveness of personnel by developing poli­
                            cies, standards, and approaches to aid in the establishment of a well-trained
                            and highly skilled workforce in the offices of the Inspectors General.

                      CIGIE replaces the President’s Council on Integrity and Efficiency (PCIE) and the
                      Executive Council on Integrity and Efficiency (ECIE). Former members of both
                      councils are now members of the newly established CIGIE. This has been an excit­
                      ing time as all Inspectors General come together and work towards common goals.

                      In the last Semiannual Report, I expressed my concern that several senior manage­
                      ment positions at the FEC were vacant. I am pleased to report that the agency has
                      filled the Staff Director position and the Chief Financial Officer position, two posi­
                      tions vital to the FEC. I look forward to working with both of these people in the
                      upcoming months.




                      Lynne A. McFarland
                      Inspector General
                      Federal Election Commission



                      April 30, 2009




                                                                                                               v
                            Oﬃce of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank
 





vi
October 1, 2008 - March 31, 2009




                                                          Table of Contents
 




     Executive Summary                                                                           1

     The Federal Election Commission                                                             3

     Office of Inspector General                                                                 4

     OIG Audit Activity 

                       Audit of the Federal Election Commission’s Fiscal Year                    5

                       2008 Financial Statements
                       Audit of the FEC’s Contract and Procurement
                       Management Process                                                        6

     OIG Hotline Information                                                                     7

     OIG Investigations                                                                          8

     Additional OIG Activity                                                                     9

     OIG Recognition                                                                            11

     Council of the Inspectors General on Integrity and Efficiency (CIGIE) Activity             12

     Reporting Requirements                                                                     13

     Table I – Inspector General Issued Reports With 

                 Questioned Cost                                                               14


     Table II – Inspector General Issued Reports With Recommendations 

                 That Funds Be Put To Better Use                                               15

     Table III – Summary Of Audit Reports With Corrective Actions 

                 Outstanding For More Than Six Months 
                                        16


     OIG Contacts 
                                                                             17

     List of Training, Meetings and Conferences 
                                               18

     OIG Strategic Plan - Fiscal Years 2005 – 2010
                                             19
     Contacting the Office of Inspector General                                 (inside back cover)


                                                                                                      vii
                              Oﬃce of Inspector General Semiannual Report to Congress




       This Page Intentionally Left Blank
 





viii
October 1, 2008 - March 31, 2009




                                                             Executive Summary
 




The Inspector General Act of 1978, as amend­             The results of the financial statement audit were
ed, states that the Inspector General is respon­         detailed in three reports: Opinion on the Financial
sible for conducting audits, inspections, investiga­     Statements; Report on Internal Control over
tions, and recommending policies and procedures          Financial Reporting; and the Report on Compliance
that promote economic, efficient, and effective use      and Other Matters. The CG-LLP Independent
of agency resources and programs that prevent            Auditor’s Report dated November 7, 2008, concluded
fraud, waste, abuse and mismanagement. The               that the FEC’s financial statements presented fairly,
IG act also requires the Inspector General to keep       in all material respects, the financial position of the
the Commission and Congress fully and currently          FEC as of September 30, 2008 and 2007, and its net
informed about problems and deficiencies in the          cost, changes in net position, budgetary resources,
Commission’s operations and the need for corrective      and custodial activity for the years then ended in
action.                                                  conformity with accounting principles generally ac­
                                                         cepted in the United States of America.
This semiannual report includes the major accom­
plishments of the Office of Inspector General, as well   During the previous reporting period, the OIG at­
as relevant information regarding additional OIG ac­     tempted to validate the deliverables of two former
tivities. The executive summary highlights the most      FEC contractors. Following discussions with man­
significant activities of the OIG. Additional details    agement, and the OIG’s failed attempts to validate
pertaining to each activity can be found in subse­       the deliverables, a decision was made to conduct
quent sections of this report.                           an Audit of the FEC’s Contract and Procurement
                                                         Management Process – OIG-08-02. The OIG hired
The Audit of the FEC’s Fiscal Year 2008 Financial        the auditing firm of Regis & Associates PC to con­
Statements – OIG-08-01 was completed and re­             duct the audit. The OIG held an entrance confer­
leased November, 2008 and can be found on the            ence with the Regis team and FEC management.
OIG’s Website at http://www.fec.gov/fecig/finan­         Following the entrance conference, the OIG attend­
cial08.pdf. Under a contract supervised by the OIG,      ed two information gathering interviews. The infor­
the independent certified public accounting firm,        mation gathered during those interviews was used
Clifton Gunderson LLP (CG-LLP) performed the au­         to assess the risk of the procurement and contract
dit of the FEC’s FY 2008 financial statements. The       management functions at the FEC and to formulate
OIG was responsible for 1) reviewing the auditor’s       the detailed audit plan and testing approach.
approach and planning of the audit; 2) evaluating the
qualifications and independence of the auditors; 3)      For detailed information regarding the above audits,
monitoring the work of the auditors; 4) examining au­    see the section entitled OIG Audit Activity (starting
dit documents and reports to ensure compliance with      on page 5).
Government Auditing Standards, and OMB Bulletin
No. 07-04, Audit Requirements for Federal Financial      The OIG is preparing to conduct the FEC’s FY 2009
Statements, as amended; and 5) other procedures          Financial Statement Audit (OIG-09-01). One of
the OIG deems necessary to oversee the contract          the stipulations contained in the Chief Financial
and audit.                                               Officers Act of 1990 (Public Law 101-576, commonly
                                                         referred to as the “CFO Act”), as amended, requires



                                                                                                                 1
                                                        Oﬃce of Inspector General Semiannual Report to Congress




the FEC Office of Inspector General, or an indepen­
dent external auditor as determined by the Inspector
General, to audit the agency’s financial statements.
At the end of this semiannual reporting period, the
OIG was preparing to award the contract to conduct
the audit for FY 2009.

As this reporting period comes to a close, there are
15 hotline complaints in various stages (pending, in
progress); and there are 5 open investigations. For
more information pertaining to the hotline issues,
see the section entitled OIG Hotline Information
(located on page 7); for more information on investi­
gations, see the section entitled OIG Investigations
(located on page 8).




2
October 1, 2008 - March 31, 2009




                            the federal election commission
 




                                        In 1975, Congress created the Federal Election
                                        Commission (FEC) to administer and enforce the
                                        Federal Election Campaign Act (FECA). The duties
                                        of the FEC, an independent regulatory agency, are to
                                        disclose campaign finance information; enforce the
                                        provisions of the law; and oversee the public funding
                                        of Presidential elections.

                                        The Commission is made up of six members, who
                                        are appointed by the President and confirmed by
                                        the Senate. Each member serves a six-year term,
                                        and two seats are subject to appointment every two
                                        years. By law, no more than three Commissioners
                                        can be members of the same political party,
                                        and at least four votes are required for any offi­
                                        cial Commission action. The Chairmanship of the
                                        Commission rotates among the members each
                                        year, with no member serving as Chairman more
                                        than once during his or her term. Currently the FEC
                                        has a full complement of Commissioners – Steven
                                        T. Walther, Chairman; Matthew S. Petersen, Vice
                                        Chairman; and Commissioners Cynthia L. Bauerly;
                                        Caroline C. Hunter; Donald F. McGahn II; and Ellen
                                        L. Weintraub.




                                                                                           3
                 Oﬃce of Inspector General Semiannual Report to Congress




    Office of Inspector General




           The Inspector General Act of 1978 (P.L. 100-504),
           as amended, states that the Inspector General
           is responsible for: 1) conducting and supervis­
           ing audits and investigations relating to the Federal
           Election Commission’s programs and operations; 2)
           detecting and preventing fraud, waste, and abuse
           of agency programs and operations while provid­
           ing leadership and coordination; 3) recommending
           policies designed to promote economy, efficiency,
           and effectiveness of the establishment; and 4) keep­
           ing the Commission and Congress fully and cur­
           rently informed about problems and deficiencies
           in FEC agency programs and operations, and the
           need for corrective action. The OIG has a budget of
           $1,159,364 and six staff members for FY 2009




4
October 1, 2008 - March 31, 2009




                                                             OIG Audit Activity
 




Audit of the Federal Election Commission’s               resources for the years then ended (hereinafter col­
Fiscal Year 2008 Financial Statements                    lectively referred to as the “financial statements”)
                                                         were audited. The audit included assessing the ac­
Assignment Number:         OIG – 08-01                   counting principles used and significant estimates
                                                         made by management, as well as evaluating the
Status: Released November, 2008                          overall principal statements’ presentation.

http://www.fec.gov/fecig/financial08.pdf                 The CG-LLP Independent Auditor’s Report conclud­
                                                         ed that the FEC’s financial statements presented
In accordance with the Accountability of Tax Dollars     fairly, in all material respects, the financial position
Act of 2002, the FEC prepared financial state­           of the FEC as of September 30, 2008 and 2007,
ments for the 2008 fiscal year in accordance with        and its net cost, changes in net position, budgetary
Office of Management and Budget (OMB) Circular           resources, and custodial activity for the years then
No. A-136, Financial Reporting Requirements. The         ended in conformity with accounting principles gen­
Chief Financial Officers Act of 1990, as amended,        erally accepted in the United States of America.
requires the FEC Inspector General, or an indepen­
dent external auditor selected by the IG, to audit the
agency financial statements.
                                                         Report on Internal Control over Financial
Under a contract supervised by the OIG, the in­          Reporting
dependent certified public accounting firm, Clifton
Gunderson LLP (CG-LLP) performed the audit of            CG-LLP’s planning and performance of the audit
the FEC’s FY 2008 financial statements. The OIG          included consideration of the FEC’s internal con­
was responsible for 1) reviewing the auditor’s ap­       trol over financial reporting as a basis for designing
proach and planning of the audit; 2) evaluating the      audit procedures for the purpose of expressing an
qualifications and independence of the auditors; 3)      opinion on the financial statements and to comply
monitoring the work of the auditors; 4) examining        with OMB Bulletin 07-04, as amended. The auditors
audit documents and reports to ensure compliance         did not test all internal controls relevant to operat­
with Government Auditing Standards, and OMB              ing effectiveness, such as those controls relevant
Bulletin No. 07-04, Audit Requirements for Federal       to ensuring efficient operations and consequently
Financial Statements, as amended; and 5) other           CG-LLP did not express an opinion on the agency’s
procedures the OIG deems necessary to oversee            internal control over financial reporting.
the contract and audit.
                                                         The American Institute of Certified Public
                                                         Accountants (AICPA) established standards on com­
                                                         municating deficiencies related to internal control
Opinion on the Financial Statements
                                                         over financial reporting indentified by the auditors.
The consolidated balance sheets of the FEC as of         As defined by the AICPA, a control deficiency exists
September 30, 2008 and 2007 and the related state­       when the design or operation of a control does not
ments of net cost, changes in net cost, changes in       allow the agency’s management or its employees,
net position, and combined statement of budgetary        in the normal course of performing their assigned



                                                                                                                5
                                                                  Oﬃce of Inspector General Semiannual Report to Congress




duties, to prevent or detect misstatements on a time­        CG-LLP indentified a reportable noncompliance in
ly basis.                                                    the area of:

Auditors determined whether an internal control                •	 The Federal Managers’ Financial Integrity Act
deficiency is a significant deficiency or a material              (FMFIA)
weakness based on the factors of the likelihood
and magnitude. A significant deficiency is a control
deficiency, or combination of control deficiencies,
that adversely affects the agency’s ability to initiate,     Audit of the FEC’s Contract and Procurement
authorize, record, process, or report financial data
reliability in accordance with generally accepted ac­
                                                             Management Process
counting principles such that there is a more than a
                                                             Assignment Number:        OIG – 08-02
remote likelihood that a misstatement of the finan­
cial statements will not be prevented or detected by         Status: In Progress
the agency’s internal controls.
                                                             Based on discussions with management and efforts
CG-LLP identified a significant deficiency in the area of:   by the OIG to validate the deliverables of two former
 • Information Technology (IT)                               contractors; the OIG decided to conduct an audit of
CG-LLP identified a material weakness in the area of:        the procurement and contract management func­
 •	 Financial Accounting and Reporting Controls              tions of the agency.

                                                             The OIG began the process of hiring an auditing
                                                             firm to conduct the audit. The Request for Proposal
Report on Compliance and Other Matters                       was submitted to prospective contractors; the OIG
                                                             received and reviewed the proposals, and following
FEC management is responsible for complying with             the completion of the reviewing process, the con­
laws and regulations applicable to the agency. To            tract was awarded to Regis & Associates PC to con­
obtain reasonable assurance about whether FEC’s              duct the FEC’s procurement and contract manage­
financial statements are free of material misstate­          ment audit.
ments, CG-LLP performed tests of compliance with
certain provisions of laws and regulations, non­             The contractor met with various FEC staff to gain an
compliance which could have a direct and material            understanding of the systems and processes used
effect on the determination of financial statement           to manage and monitor procurement of goods and
amounts, and certain other laws and regulations              services and monitoring of service delivery. Based
specified in OMB Bulletin No. 07-04, as amended.             on those meetings, Regis documented actual and
Tests of compliance were limited to these provisions         potential procurement and contract management
and CG-LLP did not test compliance with laws and             risks and developed a detailed audit program. They
regulations applicable to FEC.                               selected a sample of 91 procurement instruments
                                                             on which to perform detailed testing.
The results of CG-LLP’s test of compliance with
laws and regulations described in the audit report           Regis is finalizing the detailed testing of the au­
disclosed an instance of reportable noncompliance            dit sample and we expect the draft report within 30
that is required to be reported under U.S. generally         days.
accepted government auditing standards or OMB
guidance.




6
October 1, 2008 - March 31, 2009




                                   OIG hotline Information:
 




                                        The Office of Inspector General established a
                                        hotline to enable employees and others to have di­
                                        rect and confidential contact with the OIG. The OIG
                                        receives complaints through various means such as
                                        U.S. mail, telephone, e-mail, and personal visits to
                                        the OIG. Once a hotline (HL) complaint has been
                                        received, a preliminary inquiry is conducted. When
                                        the inquiry has been completed, the hotline com­
                                        plaint can be closed with no further action taken,
                                        referred to management for action, or closed and an
                                        investigation opened on the issue.

                                        During this six month reporting period, three new
                                        hotline complaints were opened, four hotline com­
                                        plaints were closed, and two hotline complaints
                                        were closed and converted into investigations. The
                                        OIG reviewed records, conducted legal research,
                                        and drafted closing documents in connection with
                                        the closed hotline complaints.

                                        As this reporting period ends, the OIG currently has
                                        fifteen (15) open hotline complaints in various stag­
                                        es (pending or in progress).




                                                                                             7
         Oﬃce of Inspector General Semiannual Report to Congress




      OIG investigations: 




    OIG investigations seek out facts related to
    allegations of wrongdoing. OIG investigations may
    address administrative, civil, and criminal violations
    of laws and regulations. The subject of an OIG
    investigation can be any agency employee, an FEC
    contractor, consultant, or a person or entity involved
    in alleged wrongdoing affecting FEC programs
    and operations. At the conclusion of an OIG
    investigation, the OIG prepares a report that sets
    forth the allegations and an objective description of
    the facts developed during the investigation.

    The OIG conducts a detailed examination or inquiry
    into issues brought to our attention by various
    sources. The examination of the information
    provided could potentially lead to an official
    investigation.

    Currently there are five (5) open investigations - four
    are administrative investigations; one is a criminal
    investigation.




8
October 1, 2008 - March 31, 2009




                                   Additional OIG Activity:
 




                                       Besides conducting audits, inspections, and investi­
                                       gations, the OIG performs, and is involved in an ar­
                                       ray of additional projects and activities. As required
                                       by the Inspector General Act of 1978, as amend­
                                       ed, all legislation compiled by the Commission’s
                                       Congressional Affairs office is reviewed by the
                                       Inspector General. The Inspector General also re­
                                       views and provides comments, when appropriate,
                                       on legislation provided by the Council of Inspectors
                                       General on Integrity and Efficiency (CIGIE)
                                       Legislative Committee. In addition, the Inspector
                                       General routinely reads all Commission agenda
                                       items. Listed below are examples of the OIG’s addi­
                                       tional activities:

                                         •	 The OIG is preparing to conduct the FEC’s FY
                                            2009 Financial Statement Audit (OIG-09-01).
                                            One of the stipulations contained in the Chief
                                            Financial Officers Act of 1990 (Public Law 101­
                                            576, commonly referred to as the “CFO Act”), as
                                            amended, requires the FEC Office of Inspector
                                            General, or an independent external auditor as
                                            determined by the Inspector General, to audit
                                            the agency’s financial statements.

                                            The OIG conducted a solicitation to select an
                                            independent public accounting firm to conduct
                                            the FEC’s annual financial statement audit.
                                            During this reporting period the OIG released
                                            the Request for Proposal (RFP). The goal of
                                            the RFP was to engage the services of a con­
                                            tractor to conduct a financial statement audit
                                            in order to render an opinion to the Inspector
                                            General on the FEC’s financial statements and
                                            information technology controls for FY 2009.
                                            The OIG formulated a panel to evaluate the
                                            proposals; each panel member read the pro­
                                            posals and ranked them as they believed the
                                            firms responded to the RFP requirements. After
                                            the panel members completed their individual



                                                                                            9
                                                           Oﬃce of Inspector General Semiannual Report to Congress




     evaluation of each firm, a meeting was held           independent of the audit, ensure that state­
     to evaluate the overall technical merit of each       ments of facts, figures, and dates are correctly
     proposal and decide which offeror would be the        reported; that the findings are adequately sup­
     best potential provider of the service.               ported by the evidence in the audit documenta­
                                                           tion; and that the conclusions and recommen­
 •	 The FEC engaged a contractor to work with the
                                                           dations flow logically from the evidence.
    various divisions and create a comprehensive
    inventory of personally identifiable information    •	 The OIG met with an Information Technology
    (PII) held at the agency, to include physical lo­      Division (ITD) representative to discuss our op­
    cation, storage, and destruction methods. On           tions for adding the OIG to the Federal Election
    March 4, 2009, members of the OIG attended             Commission’s Intranet (FECNet). FECNet
    the training provided by the contractor on PII         serves as the interactive information resource
    definitions, classifications and instruction on        for FEC employees and is only accessible by
    how to complete a detailed questionnaire pro­          connecting to the internal FEC network. The
    vided by the firm. We provided the contrac­            ITD representative presented a power point
    tor a tour of the OIG office area, to include our      presentation to the OIG entitled “Creating your
    secure storage and server room, in order to            Office Site.” The purpose of this presenta­
    illustrate the physical and logical separation of      tion was to introduce the OIG to the Intranet/
    OIG records and secure network from the rest           FECNet team, explain the purpose of an office
    of the agency. OIG staff members contributed           site on the Intranet, identify the benefits of hav­
    to a consolidated PII questionnaire that was           ing an office site, illustrate the features of the
    submitted to the contractor on March 31, 2009.         office site, and discuss the beginning process
    The questionnaire data will be used to populate        of starting the OIG site on FECNet.
    a comprehensive PII inventory for the agency.
                                                        •	 The OIG conducted several new employee ori­
 •	 During this semiannual reporting period, the           entations (NEO) during this reporting period.
    OIG developed additional IT security standards         The NEO is designed to give new employees
    with respect to managing contract auditors.            an overall look at the Commission’s core divi­
    The OIG security standards identify the mini­          sions. The OIG introduces the new employee
    mum security standards and procedures that             to the office and details the responsibilities of
    must be followed when accessing or storing             the OIG and the employee’s responsibilities as
    FEC information using either FEC or contractor         a federal employee.
    systems / networks. The contractor is respon­
    sible for compliance with the terms of these
    standards by its employees or agents. All con­
    tract auditors will be required to acknowledge,
    in writing, their understanding of the minimum
    requirements and obligations to fully comply
    with the security standards prior to providing
    services to the OIG.
 •	 The OIG finalized a Memorandum of
    Understanding (MOU) between the National
    Labor Relations Board (NLRB) OIG and the
    Federal Election Commission OIG for inde­
    pendent referencing of audit, attestation and
    inspection reports produced by the respec­
    tive offices. In accordance with guidance from
    the Generally Accepted Government Auditing
    Standards (GAGAS), referencing is a pro­
    cess in which an experienced auditor, who is


10
October 1, 2008 - March 31, 2009




                                                                OIG Recognition:
 




The Office of Inspector General would like to con­
gratulate its Deputy Inspector General, Jon Hatfield,
on his recent professional accomplishment. In May
2009, Jon Hatfield received a graduate program
certificate for completing the American University’s
Key Executive Leadership Certificate Program.
Mr. Hatfield was first nominated by the IG to par­
ticipate in the leadership studies program in 2007.
Since then, Mr. Hatfield has completed the required
sessions of program study in leadership studies,
worked with a professional leadership coach, and
participated in two 360 degree evaluations by pro­
fessional colleagues.

Due to the program’s focus on leadership and public
policy, several of the program’s modules centered on      ceremony, the OIG’s Deputy Inspector General
leadership, students focused on their personal ap­        and Staff Auditor was recognized, along with oth­
proach to leadership and were challenged to provide       er members of the PCIE/ECIE financial statement
a context for exploring the role of the leader as a       audit network (FSAN) group, as recipients of the
team builder; students further explored action learn­     Barry R. Snyder PCIE/ECIE Joint Award. The 2008
ing techniques and principles. The action learning        Barry R. Snyder joint award was given to members
framework is a modern application of proven clas­         of the FSAN group for the “sustained contribution of
sical methods of questioning and provides a very          the Network to positively improve Federal financial
adaptable structure for exploring creative approach­      management by bringing together representatives
es to a variety of problems. In addition, the training    from the PCIE/ECIE community.”
will assist in improving skills that aid in effectively
evaluating the FEC’s implementation of policy as a        The OIG is very proud of the accomplishments of
result of Congressional legislation, executive orders,    our staff and the well deserved recognition they
and regulations.                                          have received.

After conclusion of the program, students who com­
plete all three sessions receive a certificate indicat­
ing they have fulfilled the program requirements and
are now eligible to receive nine credit hours toward
a master’s degree in public administration from the
Key Executive MPA Program at American University.

Members of the OIG also attended the PCIE/ECIE
annual awards ceremony held at the Andrew W.
Mellon Auditorium in Washington, DC. At the awards



                                                                                                             11
                                                             Oﬃce of Inspector General Semiannual Report to Congress




        Council of the Inspectors General on
      Integrity and Efficiency (cigie) Activity:


Prior to the passage of the Inspector General           IG, along with the Counsel to the IG, met on sev­
Reform Act, the Inspector General attended a meet­      eral occasions with other members of the commit­
ing with the PCIE Vice Chair, the Chair of the PCIE     tee, representatives from the Office of Personnel
Legislation Committee and Senate staff to discuss       Management, and a Senate staff member to discuss
the implementation of the IG Reform Act and to dis­     the various systems residing in the effected agen­
cuss any problems that may arise.                       cies and how best to implement the required chang­
                                                        es to the IG pay structure.
The Inspector General was a member of the IG
Implementation Committee that was formed to
prepare for the passage of the Inspector General
Reform Act (Act). This committee looked into funding
for the new council, developed an operating charter
that was considered and adopted by the entire mem­
bership for implementation, and devised a process to
elect the first chair of the new council.

A meeting was also held with OMB’s Deputy
Director for Management to discuss the IG com­
munity’s planned implementation of the IG Reform
Act. In attendance were the IG, PCIE Vice Chair,
the Department of Interior IG and the Department of
Agriculture IG. Discussions were held concerning
the upcoming election of a chair, the planned char­
ter, and the staffing of the new council.

The Inspector General was asked to conduct the
election for the new chair once the Act became law.
The President signed the Act on October 14, 2008.
Shortly, thereafter, the election was conducted elec­
tronically using a web based voting mechanism. All
seventy-three members of the CIGIE were contacted
and the voting process was explained. The election
was completed and Phyllis Fong, Inspector General,
Department of Agriculture was elected as the first
chair of the CIGIE.

With the passage of the Act, and to meet the re­
quirements relating to the Inspectors General new
pay system, the Inspector General participated in
the committee convened to address this issue. The



12
October 1, 2008 - March 31, 2009




                                                      Reporting Requirements 


      Reporting requirements required by the Inspector General Act of 1978, as amended by the Inspector
      General Act Amendments of 1988 are listed below:


     IG Act                        Description                                                                Page


    Section 4(a)(2)                Review of Legislation                                                             9

    Section 5(a)(1)                Signiﬁcant Problems, Abuses, and Deﬁciencies                                None

    Section 5(a)(2)                Recommendations with Respect to Signiﬁcant Problems, Abuses,                None
                                   and Deﬁciencies

    Section 5(a)(3)                Recommendations Included in Previous Reports on Which Corrective              16
                                   Action Has Not Been Completed (Table III)

    Section 5(a)(4)                Matters Referred to Prosecuting Authorities                                 None

    Section 5(a)(5)                Summary of Instances Where Information was Refused                          None

    Section 5(a)(7)                Summary of Signiﬁcant Reports                                                     5

    Section 5(a)(8)                Questioned and Unsupported Costs (Table I)                                    14

    Section 5(a)(9)                Recommendations that Funds be put to Better Use (Table II)                    15

    Section 5(a)(10)               Summary of Audit Reports issued before the start of the Reporting Period     N/A
                                   for which no Management Decision has been made

    Section 5(a)(11)               Signiﬁcant revised Management Decisions                                      N/A

    Section 5(a)(12)               Management Decisions with which the Inspector General is                    None
                                   in Disagreement




                                                                                                                     13
                                                          Office of Inspector General Semiannual Report to Congress




                                                                                            TABLE I

INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
(DOLLAR VALUE IN THOUSANDS)




                                                       Number       Questioned            Unsupported
                                                                      Costs                  Costs

A. For which no management decision has been made by     0                  0                       0
   commencement of the reporting period


B. Which were issued during the reporting period         0                  0                       0


     Sub-Totals (A&B)                                    0                  0                      0


C. For which a management decision was made during       0                  0                      0
   the reporting period


     (i) Dollar value of disallowed costs                0                  0                      0


     (ii) Dollar value of costs not disallowed           0                  0                      0


D. For which no management decision has been made by     0                  0                      0
   the end of the reporting period

E. Reports for which no management decision was made     0                  0                      0
   within six months of issuance




14
October 1, 2008 - March 31, 2009




                                                                                  TABLE II

INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE



                                                                       Number     Dollar Value
                                                                                (In Thousands)
  A. For which no management decision has been made by the               0            0
     commencement of the reporting period

  B. Which were issued during the reporting period                       0            0

  C. For which a management decision was made during the report­         0            0
     ing period
     (i) dollar value of recommendations were agreed to by               0            0
         management

         based on proposed management action                             0            0

         based on proposed legislative action                            0            0

     (ii) dollar value of recommendations that were not agreed to by     0            0
          management
  D. For which no management decision has been made by the end           0            0
     of the reporting period
  E. Reports for which no management decision was made within            0            0
     six months of issuance




                                                                                            15
                                                Oﬃce of Inspector General Semiannual Report to Congress




                                                                               TABLE III



SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS OUTSTANDING FOR MORE
THAN SIX MONTHS

                                                          Recommendations
          Report Title             Report      Issue Date     Number          Closed          Open
                                   Number
     Audit of the FEC’s Employee   OIG-06-01    02/07            22              1             21
     Transit Program
     Audit of the FEC’s FY 2007    OIG-07-01    11/07            20             12              8
     Financial Statements
     2007 Performance Audit of     OIG-07-02    12/07             7              0              7
     Privacy and Data Protection




16
October 1, 2008 - March 31, 2009




                                                                            OIG Contacts
 



The table below indicates the total amount of contacts received by the Office of Inspector General for the past
six months – October 1, 2008 through March 31, 2009.

These contacts were made through various sources such as telephone calls, personal visits to the OIG, e-
mails, faxes, and U.S. mail.




                     Total          OIG         No Action       Forwarded
                    Contacts       Action       Necessary       for Action

                     1,044             9         1,006               29




                                                                                                              17
                                                                  Oﬃce of Inspector General Semiannual Report to Congress




                                          List of Training, Meetings
                                                    and Conferences

The chart listed below depicts training, meetings, programs, seminars, and/or conferences attended by the
Inspector General and/or the OIG staff for the period October 1, 2008 – March 31, 2009.

                        Host/Sponsor                                                   Topic/Subject
                                                                 Monthly Meetings

                                                       CIGIE     Executive Council Meetings

                                                                 Financial Statement Audit Network (FSAN) Meetings

                Council of Counsels to the Inspectors General    CCIG Meetings

                Assistant Inspector General for Investigations   AIGI Quarterly Meetings

                           Government Accountability Oﬃce        IG / GAO Annual Meeting

                                     National Finance Center     NFC Meeting with OIGs

                                         American University     Key Executive Leadership – Session Three

                                                                 Eﬀective Writing for Lawyers Workshop/Training

                                                                 Basics of Filing and Litigating FOIA Requests Training
                                                      DC Bar
                                                                 Mandatory Professional Responsibility Training

                                                                 DC Rules of Professional Conduct Training

                                      USDA Graduate School       Certiﬁed Internal Auditors Review Course/Training
                 Federal Audit Executive Council Contracting
                                                 Committee       Basics of Contracting Seminar

                               Department of Transportation      Federal User Group (FUG) Conference

                                                CIGIE / GAO      Financial Statement Audit Conference

                                                                 Weekly Senior Level Meetings

                                Federal Election Commission      Town Hall Meeting

                                                                 OIG Bi-weekly Staﬀ Meetings




18
October 1, 2008 - March 31, 2009




   FEC/OIG Strategic Plan - Fiscal Years 2005 – 2010
 

      OIG Products: To provide products                           OIG Process: To develop and implement
                                                                                                                                   OIG Staff: To maintain a skilled and motivated
      and services that promote positive                          processes, policies, and procedures to ensure
                                                                                                                                   work force in an environment that fosters
      change in FEC policies, programs, and                       the most effective and appropriate use of OIG
                                                                                                                                   accountability, communications, teamwork, and
      operations.                                                 resources in support of our people and
                                                                                                                                   personal and professional growth.
                                                                  products.

      Objective A: Deliver timely, high-quality                                                                                    Objective A: Attract and retain well-qualified,
      products and services that promote                                                                                           diverse and motivated employees.
      positive change.                                              Objective A: Maintain a dynamic strategic
                                                                    planning process.                                              Strategy:
                                                                                                                                   - develop and implement a comprehensive recruiting program
      Strategy:                                                                                                                    that attracts a broad population with the knowledge, skills,
      - establish common OIG standards for communicating            Strategy:
                                                                                                                                   abilities, and expertise necessary to make meaningful
      results;                                                      - periodically review and update the strategic plan to
                                                                                                                                   contributions to the OIG;
      - conduct quality assurance programs;                         address changing OIG and FEC priorities; and,
                                                                                                                                   - assess employee satisfaction and develop strategies to
      - solicit appropriate internal and external review and        - identify factors that influence organizational change
                                                                                                                                   address employee concerns;
      comment;                                                      and develop short and long term plans to address them.
                                                                                                                                   - identify reasons for staff departures and develop plans to
      - comply with applicable statutory guidelines and                                                                            foster greater staff retention; and,
      standards;                                                                                                                   - adhere to EEO principles and strive to maintain a diverse work
      - set realistic and appropriate milestones.                                                                                  force.

      Objective B: Address priority issues
      and concerns of the Commission,
                                                                    Objective B: Plan and conduct cost-
      Management, and Congress.
                                                                    effective work that address critical issues                    Objective B: Provide training and
      Strategy: Perform work that supports; 
                       and results in positive change.                                developmental opportunities to employees.
      - Federal Election Commission and Congressional 

      priorities; 
                                                 Strategy:                                                      Strategy:
      - Strategic Management Initiative efforts; 
                  - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
                                                                    activities;                                                    office needs as well;
      Focus OIG attention in the following areas of 
               - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
      emphasis: 
                                                   goals and priorities;                                          training are adhered to; and,
      - managing change; 
                                          - ensure that priorities of IG are effectively                 - maintain a reporting system to ensure that educational
      - resource allocation in relation to policy objectives; 
     communicated; and,                                             requirements are met.
      - delivery of client service; 
                               - identify specific targets for OIG review that are the most
      - causes of fraud and inefficiency; and, 
                    cost-effective
      - automation and communication. 




                                                                    Objective C: Identify customer needs and
                                                                    provide products and services to meet
      Objective C: Follow-up and evaluate                           them.                                                          Objective C: Assess, recognize, and reward,
      results of OIG products and services to                                                                                      when possible, performance that contributes to
      assess their effectiveness in promoting                       Strategy:                                                      achieving the OIG mission.
      positive change.                                              - establish new customer feed back mechanisms;
                                                                    - consider and evaluate customers feedback when                Strategy:
                                                                    planning and developing products and services;
      Strategy:                                                     - respond to Congressional inquires and request for
                                                                                                                                   - develop and articulate expectations for each employee's
      - Identify, as appropriate, lessons learned to improve                                                                       performance, including contributions in meeting the mission &
                                                                    briefing and testimony;
      timeliness and quality; and,                                                                                                 goals of the OIG; and,
                                                                    - promote open exchange of ideas and information
      - conduct follow-up reviews to determine if intended                                                                         - ensure that rewards, when possible, are given in recognition of
                                                                    through outreach and through use of e-mail; and,
      results have been achieved.                                                                                                  exceptional employee performance.
                                                                    - receive, evaluate, and respond, as appropriate, to
                                                                    information received through the OIG hotline and other
                                                                    sources.


      Objective D: Satisfy customers,
      consistent with the independent nature                        Objective D: Implement efficient, effective,                   Objective D: Create and maintain a working
      of the OIG.                                                   and consistent resolution and follow-up                        environment that promotes teamwork and
                                                                    procedures.                                                    effective communication.
      Strategy:
      - establish professional communication and                    Strategy:                                                      Strategy:
      interaction with customers to promote the open                - ensure that IG follow-up procedures are followed and
                                                                                                                                   - ensure that communication between employees is open;
      exchange of ideas;                                            that management is aware of their role in the process;
                                                                                                                                   - provide employees with the tools and incentives they need to
      - incorporate customer feedback, as appropriate; and,         - establish common OIG standards for terminology, date
                                                                                                                                   adequately perform their duties.
      - be open to customer-generated solutions and                 maintenance and communications.
      options.

                                                                    Objective E: Establish a positive and
                                                                    productive working environment.

                                                                    Strategy:
                                                                    - reengineer or streamline OIG procedures to achieve the
                                                                    most effective use of resources; and,
                                                                    - ensure that necessary technologies, evolving and
                                                                    otherwise, are made available to staff as needed.



      Performance Measures: Determine the
      timeliness and quality of products and                        Performance Measures: An annual audit                          Performance Measures: All employees meet
      services; their effectiveness in                              plan is issued; strategic plan is periodically                 the training requirements; all employees have
      promoting positive change; and, reach                         reviewed; and, necessary technology is                         performance standards; and all employees
      agreement with management on at least                         provided to staff to enable them to most                       meet the basic requirements for the position in
      90% of recommendations within six                             efficiently perform their duties.                              which they were hired to perform.
      months of the report issue date.




                                                                                                                                                                                                       19
                                          CONTACTING THE
                              OFFICE OF INSPECTOR GENERAL


The success of the OIG mission to prevent fraud, waste, and abuse depends on the cooperation of FEC em­
ployees (and the public). There are several ways to report questionable activity.




                       Call us at 202-694-1015 (A confidential or anonymous message can be left 24
                       hours a day) or toll-free 1-800-424-9530 (press 0; then dial 1015
                       Mon–Fri 8:30 AM – 5:00 PM).


                       Write or visit us - we are located at: Federal Election Commission

                       Office of Inspector General
 

                       999 E Street, N.W., Suite 940
 

                       Washington, D.C. 20463
 


                       Mail is opened by OIG staff members only.




                       You can also fax us at 202-501-8134 or contact us by e-mail at: oig@fec.gov.
 





                       Website address: http://www.fec.gov/fecig/fecig.shtml
 





Individuals may be subject to disciplinary or criminal action for knowingly making a false complaint or provid­
ing false information.
